         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Has Taken Steps to
       Address Cyber Threats but
       Key Actions Remain Incomplete
       Report No. 11-P-0277

       June 23, 2011
Report Contributors:                               Patricia H. Hill
                                                   Stephen J. Nesbitt
                                                   Rudolph M. Brevard
                                                   Cheryl Reid
                                                   Scott Sammons




Abbreviations

APT           Advanced Persistent Threat
ASSERT        Automated System Security Evaluation and Remediation Tracking
CIO           Chief Information Officer
CSIRC         Computer Security Incident Response Capability
CTS           Customer Technology Solutions
EPA           U.S. Environmental Protection Agency
ETP           Enterprise Transition Plan
FY            Fiscal year
NIST          National Institute of Standards and Technology
OEI           Office of Environmental Information
OIG           Office of Inspector General
US-CERT       United States Computer Emergency Readiness Team




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-P-0277
                                                                                                       June 23, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review            EPA Has Taken Steps to Address Cyber
We reviewed prior audit work      Threats but Key Actions Remain Incomplete
to highlight unimplemented
actions the U.S.                   What We Found
Environmental Protection
Agency (EPA) should take to       News publications have reported that APTs are increasingly prevalent throughout
protect network resources         the federal government. In November 2009, the Agency reported 14 compromised
from the increase of Advanced     systems that were associated with an Office of Inspector General investigation of
Persistent Threats (APTs)         APTs. By September 2010, the Agency reported that over 7,800 of its systems had
within the Agency.                communicated with known hostile Internet protocol addresses. These Agency
                                  systems potentially could have been compromised by APTs due to these
Background                        communications. The National Institute of Standards and Technology reports that
                                  organizations must enhance risk management and information security governance
An APT is a cybercrime            to guard against APTs.
designed to steal or modify
information without detection.    We issued previous reports and made recommendations that could help the
These attacks are targeted at     Agency strengthen cyber security practices for combating APTs. However, some
organizations, businesses, and    of those recommendations remain unimplemented, and we continue to find and
political entities, and the       report on similar weaknesses at other EPA locations. EPA should address open
perpetrators are usually          recommendations, be proactive in implementing agreed-upon actions without
organized and well funded.        further delay, and take steps to improve cyber security practices throughout the
APTs are typically tailored,      entire Agency. If EPA does not take these steps, its information security
using multiple attack             weaknesses could negatively affect the availability and integrity of all Agency
methodologies and tools, for      data.
specific targets. After an
attack on the specific target      What We Recommend
has been successful, the threat
maintains a foothold on the       We recommend that the Assistant Administrator for Environmental Information
target for future exploitation.   and Chief Information Officer issue a memorandum to Office of Environmental
                                  Information executives stressing the importance of and expectation for
                                  completing audit recommendations by the agreed-upon milestone date, strengthen
                                  management control processes for monitoring and completing all open and future
                                  audit recommendations by the agreed-upon milestone date, and update the
For further information,          Enterprise Transition Plan Information Management segment to define the actions
contact our Office of             the Agency plans to take to achieve its security target architecture.
Congressional, Public Affairs
and Management at
(202) 566-2391.                   The Agency agreed with all the recommendations except for the recommendation
                                  to update its audit control process to require the Chief Information Officer to
The full report is at: 	          approve milestone dates extensions. Management stated that it implemented a
www.epa.gov/oig/reports/2011/     new audit control process giving the Chief Information Officer monthly status
20110623-11-P-0277.pdf
                                  reports, and we removed the recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                              THE INSPECTOR GENERAL


                                          June 23, 2011

MEMORANDUM

SUBJECT:	 EPA Has Taken Steps to Address Cyber Threats but
          Key Actions Remain Incomplete
          Report No. 11-P-0277


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Malcolm D. Jackson
               Assistant Administrator for Environmental Information and
               Chief Information Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $128,210.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director, Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov; or Cheryl Reid, Project Manager, at (919) 541-2256 or
reid.cheryl@epa.gov.
EPA Has Taken Steps to Address Cyber Threats but                                                                               11-P-0277
Key Actions Remain Incomplete


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Increases in APTs Heighten Need to Improve Cyber Security ...............................                                          2


   EPA’s Plans for Combating Current Cyber Threat ..................................................                                  3


   Audit Work Continues to Highlight Improvements Needed in 

   EPA’s Information Security Practices.......................................................................                        4


   Recommendations ......................................................................................................             7


   Agency Response and OIG Comments ....................................................................                              8


   Status of Recommendations and Potential Monetary Benefits..............................                                            9




Appendices
   A       Agency Response to Draft Report....................................................................                       10


   B       Summaries of OIG Information Security Reports and Memorandum ..........                                                   13 


   C       Open Recommendations ...................................................................................                  17 


   D       Distribution .........................................................................................................    19

Purpose
                 We sought to highlight unimplemented actions the U.S. Environmental Protection
                 Agency (EPA) should take to protect network resources from the increase of
                 Advanced Persistent Threats (APTs) within the Agency.

Background
                 An APT is a cybercrime1 designed to steal or modify information without
                 detection. These attacks are targeted at organizations, businesses, and political
                 entities. The attackers that carry them out are typically organized and well funded.
                 Unlike other virus attacks that may be launched at thousands of random
                 computers on the Internet, APT activities are tailored, using multiple attack
                 methodologies and tools, for specific targets. After a target has been successfully
                 attacked, the attacker maintains a foothold on the target for future exploits. In
                 other words, after an organization fixes the initial vulnerability, the attacker will
                 be able to persist in an automated and hidden mode, remaining on the network
                 unbeknownst to the organization.

                 In June 2010, the National Institute of Standards and Technology (NIST) reported
                 that federal agencies must take steps in the five areas below to strengthen their
                 risk management and information security governance practices to prepare for
                 these attacks:

                     1.	 Develop an organizational risk management and information security
                         strategy.

                     2.	 Integrate information security requirements into the organization’s core
                         missions and business processes, enterprise architecture, and system
                         development life cycle processes.

                     3.	 Allocate management, operational, and technical security controls to
                         organizational information systems and environments of operation based
                         on an enterprise security architecture.

                     4.	 Implement a robust continuous monitoring program to understand the
                         ongoing security state of organizational information systems.

                     5.	 Develop a strategy and capability for the organization to operate while
                         under attack, conducting critical missions and operations, if necessary, in a
                         degraded or limited mode.




1
  Cybercrime refers to any crime that involves a computer and a network. The computer may have been used in the
commission of a crime, or it may be the target.


11-P-0277                                                                                                    1
            NIST reported that addressing APTs requires a major change in strategic thinking
            to understand that this class of threat cannot always be kept outside of an agency’s
            defensive perimeters and most likely already resides on its networks. As such,
            agencies need to employ methods to constrain the threats to ensure the resiliency
            of their missions and business processes.

Scope and Methodology
            We performed this audit from July 2010 through April 2011. We reviewed Office
            of Inspector General (OIG) audit work and reports issued from fiscal years (FYs)
            2008 through 2010, as well as cyber security issues identified during
            investigations. We reviewed corrective action plans related to open audit
            recommendations. We reviewed EPA’s FY 2010 Agency Financial Report to
            identify management’s actions to address the OIG-identified top management
            challenge regarding cyber security. We reviewed EPA’s Management Audit
            Tracking System to identify the current milestone dates management identified
            for completing unimplemented audit recommendations.

            Appendix A of this report contains a summary of several OIG audit and
            evaluation reports and a memorandum assessing EPA’s information technology
            security. We used the analysis of these documents to develop multiple sections of
            this report.

            In December 2010, we provided the Agency a copy of our analysis. We included
            the Agency’s response to our analysis in the report where appropriate. We did not
            evaluate assertions the Agency made in its response.

            We conducted this audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the audit to
            obtain sufficient and appropriate evidence to provide a reasonable basis for our
            conclusions based on the objectives. We believe the evidence obtained provides a
            reasonable basis for our conclusions.

Increases in APTs Heighten Need to Improve Cyber Security
            Security articles have reported that APTs are an increasing presence throughout
            the federal government. In addition, these articles indicated that U.S. government
            websites, including those of the White House and State Department, have come
            under broad cyber attacks since July 2009. They believe that a large-scale cyber
            attack could be as devastating to the U.S. economy and infrastructure as a terrorist
            bombing.

            Four quarterly trend reports covering the period February 2010 through January
            2011, issued by the EPA Computer Security Incident Response Capability
            (CSIRC) center, highlight the need for the Agency to strengthen its ability to
            respond to cyber threats. According to the reports, there was an average of


11-P-0277                                                                                    2
            565 security incidents per quarter. The two most frequent categories for incidents
            were (1) unauthorized scans, probes, and attempted access, and (2) investigations
            into users’ reports of cyber attacks. EPA noted that the highest number of
            incidents pertained to possible malicious code infections, a common attack
            method used by APTs.

            In addition to EPA’s efforts to investigate user reports of cyber attacks, EPA has
            identified a number of computers attempting to communicate with United States
            Computer Emergency Readiness Team (US-CERT)-identified suspicious
            domains. From
            December 2009 to
                                                  Figure 1: Average daily number of EPA
            September 2010, EPA
                                                  computers potentially compromised by APTs
            reported that it 

            identified over 7,800 

                                                 80

            potentially
            compromised computers                60

            communicating on the 

                                                 40

            Agency’s network.
                                                20
            As shown in figure 1,               0
            while EPA experienced
                                                      12/16/09 3/16/10 to 6/16/10 to
            a sharp increase in the                  to 3/15/10 6/15/10      9/15/10
            number of potential
            compromises during the              Source: OIG analysis.
            first 90 days of this
            period, the Agency
            noted that the average
            daily number has decreased over the last 180 days of this period.

EPA’s Plans for Combating Current Cyber Threat
            In FY 2010, we identified EPA’s limited capability to respond to cyber security
            attacks as a key management challenge confronting the Agency. In EPA’s
            FY 2010 Agency Financial Report, EPA responded that it will continue to
            manage the threat through Agency-wide vigilance and improved detection
            capabilities. EPA responded that it had:

                	 Affirmed a position to support continuous monitoring across the
                   information technology infrastructure

                	 Made investments to improve capability and increase visibility in its
                   network

                	 Raised awareness and vigilance across its information security officer
                   community by providing training and placing a security track into its
                   e-Learning portal


11-P-0277                                                                                   3
            EPA noted that it should enhance its information security officer training.
            Further, EPA stated that it is using existing contracts to augment current
            contractor staff and pursuing more contract support to focus on detecting APTs.

Audit Work Continues to Highlight Improvements Needed in
EPA’s Information Security Practices
            Our audit work and ongoing analysis continue to highlight how EPA’s delays in
            completing key audit recommendations hinder the Agency’s ability to respond to
            cyber security attacks. Open recommendations for which milestone dates have
            passed are published semiannually in the OIG’s Compendium of Unimplemented
            Recommendations. EPA management extended milestone dates for open
            recommendations that pertain to cyber security instead of completing corrective
            actions. This practice has left EPA with sporadically implemented information
            security practices, which thwart the Agency’s ability to promote a focused,
            multipronged approach in the NIST-recommended areas. Details on EPA with
            respect to each of the NIST areas follow.

            Organizational Information Security Strategy

            Given the current threat environment, EPA should increase the effectiveness of its
            key organizational information security strategies. In particular, we found limited
            assurance that data in the Automated System Security Evaluation and
            Remediation Tracking (ASSERT) tool are reliable. In addition, we concluded that
            the CSIRC center lacks the skills and resources to promptly identify and
            effectively remedy ongoing cyber threats.

               	 ASSERT. Procedures for oversight and monitoring of self-reported data
                  provide limited assurance that the data in the system are reliable for
                  assessing EPA’s computer security program. ASSERT is an online tool to
                  gather information regarding testing and evaluating EPA’s information
                  systems. It also tracks progress toward fixing identified security
                  weaknesses. We found that unsupported responses for self-reported
                  information contributed to data quality problems. Limited independent
                  reviews, a lack of training on assessing security controls, and limited
                  internal reporting of these controls also affected data quality. Unreliable
                  data in ASSERT make it difficult for management to know where
                  vulnerabilities exist. Therefore, the system is not reliable for
                  decisionmaking.

               	 CSIRC. Limited followup activities and an overreliance on US-CERT
                  lead us to conclude that the CSIRC center does not have the technical
                  skills or resources needed to promptly identify and remedy ongoing cyber
                  threats. The CSIRC center is EPA’s Agency-wide approach to protecting
                  information assets and responding to actual and potential incidents. EPA


11-P-0277                                                                                   4
                   has traditionally relied on US-CERT to identify external threats, develop
                   technical solutions, and coordinate government-wide responses to cyber
                   attacks. EPA had not taken steps to modify a contract to provide forensic
                   tools and technical expertise to the CSIRC center until APTs rapidly
                   infiltrated the Agency’s network. At the time of this report, EPA had not
                   put in place the new contract. This situation is further compounded by
                   EPA’s limited followup activities to investigate the extent to which
                   reported incidents may have threatened and impacted Agency systems.
                   Without these additional skills and resources at the CSIRC center to
                   effectively fight cyber threats, the number of computers and workstations
                   compromised by APTs may continue to rise.

            To help ensure the reliability of self-reported data, the Agency stated that it would
            implement a tool that will provide a platform to build and validate certification
            and accreditation documentation for all Agency systems. EPA also stated that it is
            providing the CSIRC center with an array of tools to combat APTs.

            Integrated Information Security Requirements

            EPA is not integrating information security into all of its business and mission
            processes. In particular, EPA did not clearly define processes for contractor
            oversight, follow key system development life cycle requirements, and ensure
            managerial controls were in place over information security activities.

               	 EPA’s Contractor Oversight. EPA has not clearly defined monitoring
                  duties and responsibilities for contractor oversight, and has not trained
                  personnel to perform oversight. Because of the lack of training, personnel
                  are not familiar with their duties and responsibilities regarding oversight
                  of EPA-owned and contractor-operated systems. As such, these systems
                  are at risk that APT activities may occur and go undetected. Undetected
                  APTs can result in loss, destruction, theft, and misuse of sensitive
                  proprietary information. EPA stated it has and will continue to conduct
                  certification and accreditation workshops addressing the Agency’s roles
                  and responsibilities related to contractor oversight processes.

               	 System Development Life Cycle Processes. EPA placed contractor
                  equipment into production without a security plan. This plan is a key
                  system development life cycle step and a federal requirement. Security
                  planning assesses risks to EPA’s network and is a key factor in
                  management’s decision to authorize the equipment for use. As such,
                  management lacked the information it needed to protect the Agency’s
                  network from possible threats posed by the over 11,700 contractor
                  computers placed into production.

               	 Managerial Controls Over Information Security Activities. EPA
                  personnel with significant security responsibilities continue to be unable to


11-P-0277                                                                                      5
                   show that they executed required information security tasks. In particular,
                   offices lack evidence that testing of information systems security controls
                   takes place as required by federal guidance. Also, the offices lack
                   evidence that contingency plans are tested on an annual basis. Further,
                   EPA lacks a practice to ensure that an authorizing official receives
                   credible information to make risk-based decisions. EPA’s business
                   practice for implementing information security processes is to delegate
                   these responsibilities to senior managers throughout the Agency. Stronger
                   management controls are needed to help ensure that security activities are
                   carried out as intended. These stronger controls would help EPA comply
                   with requirements and avoid possible cyber security incidents.

            Allocation of Controls Based on Enterprise Security Architecture

            EPA has not clearly defined the Information Management segment of its current
            Enterprise Transition Plan (ETP). The Information Management segment, which
            addresses information security at an enterprise architecture level, is “Notional,” or
            not in planning. The ETP describes EPA’s overarching strategy for modernizing
            the Agency’s infrastructure to achieve its target architecture. The ETP does not
            clearly define the actions it will take to achieve its security target architecture.
            Given the rapid rise of APTs on EPA’s network, the absence of a clearly defined
            plan for implementing the Information Management segment shows a lack of
            commitment on the part of the Agency to address information security from an
            enterprise-wide perspective. Without this strategy, EPA executives may not be
            able to make proper investment decisions regarding the necessary tools to combat
            APTs with an Agency-wide approach.

            The Agency stated that all of the new information security tools that it is putting
            in place are designed to be implemented at an enterprise level.

            Continuous Monitoring

            EPA has not established an Agency-wide continuous network security monitoring
            program to identify known vulnerabilities. In this regard, EPA has not completed
            a key project that would provide its offices with the needed tools to implement an
            Agency-wide approach for identifying known vulnerabilities. Since 2005, EPA
            has tried to implement a commercial off-the-shelf network vulnerability tool. Yet,
            more than 5 years later, EPA is still reviewing the vulnerability management tool.
            This tool has the ability to identify and correct commonly known security
            weaknesses. However, project delays have thwarted EPA’s ability to move the
            project beyond the pilot stage. Continuous monitoring is so important that NIST
            mandated it as a required step for authorizing federal systems to operate.

            We conducted 16 vulnerability tests at 14 locations over the past 3 fiscal years.
            With the exception of one test, the results continued to show that EPA has
            weaknesses in identifying known critical vulnerabilities. These results occurred



11-P-0277                                                                                       6
            even though US-CERT alert notices for the critical vulnerabilities identified in
            our latest tests had been issued to the public from up to 6 months to more than
            8 years prior to our network test. Therefore, the absence of an Agency-wide
            continuous monitoring program to identify known vulnerabilities continues to
            thwart EPA’s ability to detect and correct these repeated threats throughout its
            network.

            Also, the absence of an Agency-wide process to identify known vulnerabilities
            left EPA with over 11,700 unmonitored, contractor-owned computers. Without
            monitoring, it could be possible for a hacker to gain unauthorized, undetected
            access to the Agency’s network through any of these computers. Lack of an
            Agency-wide process hinders EPA’s ability to protect the integrity and
            availability of all Agency data. Given that these weaknesses continue to exist,
            EPA should be more proactive in increasing oversight and monitoring throughout
            the entire Agency.

            EPA stated that it has acquired an Agency-wide vulnerability management tool
            and is currently deploying it. The Agency also stated that this tool will provide
            services such as power management, software deployment and inventory
            management, patch management, network node discovery, vulnerability
            management, and security configuration management.

            Continuity of Operations

            EPA has not set up the needed controls to ensure that it complies with NIST
            guidelines and EPA policies for annual testing of contingency plans for continuity
            of operations. Current EPA practices do not ensure that failed contingency tests
            are addressed and all stakeholders are informed of test results in a timely manner.
            Also, the lack of a contingency plan left EPA, for more than 1 year, without a
            strategy for recovering the data stored on the over 11,700 contractor-owned
            computers. Without thorough contingency planning, EPA cannot be sure whether
            it has a properly designed cyber attack recovery strategy.

            EPA stated it would implement a centralized database that will contain
            contingency and disaster recovery plans for EPA systems.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer:

                1.	 Issue a memorandum to Office of Environmental Information executives
                    stressing the importance of and expectation for completing audit
                    recommendations by the agreed-upon milestone date.




11-P-0277                                                                                       7
                2.	 Strengthen management control processes for monitoring and completing
                    all open and future audit recommendations by the agreed-upon milestone
                    date.

                3.	 Update the ETP Information Management segment to define actions the
                    Agency plans to take to achieve its security target architecture.

Agency Response and OIG Comments
            Management stated that over the past 2 years, it made significant personnel and
            monetary investments and took specific actions to address OIG audits and internal
            assessments. EPA believes that some of these efforts were not fully accounted for
            in the draft report. Prior to issuing the draft report, we provided the Agency with
            the planned report contents and incorporated management’s feedback into the
            draft and final reports. As noted, management agreed with our report except the
            recommendation to update its internal control practice to require Chief
            Information Officer (CIO) approval of milestone date extensions. Management
            stated that it implemented a new process to provide the CIO with monthly status
            reports on all audits. After this process is fully implemented, we believe it should
            provide the CIO better oversight of planned corrective actions. Therefore, we
            updated the report. Management’s complete response is in appendix A.




11-P-0277                                                                                    8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1         Action Official              Date      Amount      Amount

     1        7     Issue a memorandum to Office of Environmental           O        Assistant Administrator for
                    Information executives stressing the importance of               Environmental Information
                    and expectation for completing audit                            and Chief Information Officer
                    recommendations by the agreed-upon milestone
                    date.

     2        8     Strengthen management control processes for             O        Assistant Administrator for
                    monitoring and completing all open and future audit              Environmental Information
                    recommendations by the agreed-upon milestone                    and Chief Information Officer
                    date.

     3        8     Update the ETP Information Management segment           O        Assistant Administrator for
                    to define the actions the Agency plans to take to                Environmental Information
                    achieve its security target architecture.                       and Chief Information Officer




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0277                                                                                                                                          9
                                                                                     Appendix A

                   Agency Response to Draft Report
                                  May 11, 2011 (date stamped)

MEMORANDUM

SUBJECT:       OEI Response to Draft Report: EPA Has Taken Steps to Address Cyber Threats
               But Key Actions Remain Incomplete (OMS-FY10-0035)

From:          Malcolm D. Jackson
               Assistant Administrator and Chief Information Officer

To:            Patricia H. Hill
               Assistant Inspector General for Mission Systems

        The purpose of this memorandum is to provide a response to the subject draft report and
provide additional clarifications regarding the Office of Environmental Information’s (OEI)
actions in response to this and prior Office of Inspector General’s (OIG) reports regarding the
Agency’s information security program.

        OEI appreciates the OIG’s desire to ensure that EPA’s information and information
systems are secure and available to agency staff. These systems and the information within them
are essential to the Agency’s success. As the responsible office for information security in EPA,
OEI takes very seriously the charge of ensuring proper controls are implemented and functioning
properly to minimize risks to personnel, the EPA’s mission and the nation’s interests.

        Over the past two years, OEI has made significant personnel and monetary investments,
as well as taken specific actions to address several weaknesses identified in OIG audits and
internal assessments. OEI believes that some of these efforts were not fully accounted for in this
current draft, which we feel address several of the concerns raised by the OIG in this and prior
reports. My staff and I welcome the opportunity to sit with you and your staff to highlight these
efforts and to demonstrate how our efforts have in fact addressed many of your concerns and
strengthened the Agency’s overall information security posture.

       Attached you will find OEI’s detailed responses to your draft report. While OEI cannot
agree with all of the statements in the draft report, we look forward to further discussing these
recommendations and draft findings to meet the shared desire of both of our organizations to
ensure the most robust information security program possible for EPA.

       If you have any questions, please feel free to contact me or Robert McKinney, EPA’s
Senior Agency Information Security Officer.




11-P-0277                                                                                       10
cc:
Renee Wynn, Acting Principal Deputy Assistant Administrator, OEI
Vaughn Noga, Director, Office of Technology Operations and Planning
Robert F. McKinney Jr., Senior Agency Information Security Officer




11-P-0277                                                             11
   ATTACHMENT: OEI’s Detailed Response to Draft Report: EPA Has Taken Steps to 

      Address Cyber Threats buy Key Actions Remain Incomplete (OMS-FY10-0035) 


The following are OEI’s responses to the four recommendations identified in the draft report:

1. Issue a memorandum to Office of Environmental Information executives stressing the
importance of and expectation for completing audit recommendations by the agreed-upon
milestone date.

OEI agrees with this recommendation and the AA/CIO will issue a memorandum. Just for
clarification however, the AA/CIO has already made the audit program a priority on an ongoing
basis that stresses the importance of addressing findings effectively and expeditiously. The OEI
Audit Coordinator provides the OEI AA and PDAA monthly status reports of all audits and OEI
executives must provide updates to the OEI AA in Quarterly Business Reviews. OEI believes
that the memorandum, new business processes and this personal attention placed on the issue by
the AA/CIO should fully address this recommendation.

2. Strengthen management control processes for monitoring and completing all open and
future audit recommendations by the agreed-upon milestone date.

OEI agrees with recommendation 2 and as stated above believes we have taken proactive steps to
strengthen the management control processes. OEI believes recommendation 2 has been
addressed.

3. Update the process to require the Chief Information Officer’s documented approval to
extend agreed-upon milestone dates.

OEI respectfully disagrees with this recommendation, not in substance but as a matter of policy.
The controlling policy authority for audit follow up is found in EPA Manual 2750 CH2, EPA’s
AUDIT MANAGEMENT PROCESS, dated 12/1998. Unless the AA/CIO is the action official,
OEI is unable to find a requirement that the AA be required to provide documented approval to
make modifications to milestones. OEI’s position is that we, like any other AAship in the
Agency, should follow the OIG’s established procedures outlined in the Manual.

4. Update the Enterprise Transition Plan (ETP) Information Management segment to
define actions the Agency plans to take to achieve its security target architecture.

OEI agrees with recommendation 4. The Agency’s ETP was renamed EPA Modernization
Blueprint in February 2011 and describes the overarching strategy for modernizing the Agency’s
infrastructure and transition process in support of the business, as well as the specific IT projects
and approach EPA will use to achieve its target architecture. As such, OEI plans to update the
EPA Modernization Blueprint in February 2012 with specifics regarding the roadmap and the
acquisition strategy that provides enhanced security capabilities for the Agency.
OEI stands committed to working with your staff on completing the remaining open
recommendations found in Appendix B of this Draft Report.




11-P-0277                                                                                         12
                                                                                  Appendix B

             Summaries of OIG Information Security 

                 Reports and Memorandum 


The OIG has published several audit and evaluation reports and a memorandum assessing EPA’s
information technology security. Selections of these are summarized below. The complete
reports and memorandum can be accessed at http://www.epa.gov/oig/rpts_docs.htm.

 OIG Technical Vulnerability Assessment Reports (FYs 2008–2010)


The OIG conducted testing at various locations to identify network vulnerabilities. If not
resolved, vulnerabilities can expose EPA’s assets to unauthorized access and potentially harm
the Agency’s networks.

The testing, done as part of the Federal Information Security Management Act review, disclosed
several high-risk and medium-risk vulnerabilities at the following EPA locations (the report
publication number and date are in parentheses):

      Andrew W. Breidenbach Environmental Research Center, Cincinnati, Ohio (10-P-0210,
       September 7, 2010)
      Erlanger Building, Erlanger, Kentucky (10-P-0211, September 7, 2010)
      Ronald Reagan Building, Washington, DC (10-P-0212, September 7, 2010)
      Region 4, Atlanta, Georgia (10-P-0213, September 7, 2010)
      Research Triangle Park Finance Center, Research Triangle Park, North Carolina
       (09-P-0227, August 31, 2009)
      Great Lakes National Program Office, Chicago, Illinois (09-P-0185, June 30, 2009)
      National Computer Center, Research Triangle Park, North Carolina (09-P-0186,
       June 30, 2009)
      Region 8, Denver, Colorado (09-P-0187, June 30, 2009)
      Potomac Yard Buildings, Arlington, Virginia (09-P-0188, June 30, 2009)
      1310 L Street Building, Washington, DC (09-P-0189, June 30, 2009)
      EPA Headquarters, Washington, DC (09-P-0097, February 23, 2009)
      Research Triangle Park Campus, Research Triangle Park, North Carolina (09-P-0055,
       December 9, 2008)
      Las Vegas Finance Center, Las Vegas, Nevada (09-P-0054, December 9, 2008)
      Radiation and Indoor Environments National Laboratory, Las Vegas, Nevada
       (09-P-0053, December 9, 2008)

      Region 9, San Francisco, California (09-P-0052, December 9, 2008) 





11-P-0277                                                                                       13
    Improvements Needed in Key EPA Information System Security Practices
    (10-P-0146, June 15, 2010)


Williams, Adley & Company, LLP (Williams Adley), a firm that the OIG contracted with to
perform the review, found that EPA program offices lacked evidence that they planned and
executed tests of information system security controls as required by federal requirements. In
addition, Williams Adley found that contingency plans developed and maintained by program
offices were not current and accurate, and the certification and accreditation process and review
of security plans needed improvements. EPA also had two authoritative system inventories that
did not reconcile. Finally, EPA had contractor-owned and -operated systems in operation without
proper oversight monitoring.
P, Recommends
Williams Adley’s recommendations to the Director of the Office of Technology Operations and
Planning included communicating and training EPA’s information security community on testing
and documenting information systems security controls. Williams Adley also recommended that
the Director enhance the quality assurance process to verify that self-assessments evaluate all
required security controls.

    Memorandum on EPA’s Fiscal Year 2010 Management Challenges (May 11, 2010)


EPA has a limited capacity to effectively respond to external network threats despite reports
from security experts that APTs designed to steal or modify information without detection are
becoming more prevalent throughout the government. Our ongoing analysis shows that the
Agency has not addressed the challenge of remediating escalating threats from cyber security
attacks. To date, EPA has reported that over 5,000 servers and user workstations may have been
compromised as a result of recent cyber security attacks.2 These compromised systems extend to
every EPA regional office and headquarters. Moreover, ongoing work disclosed that EPA could
not identify the owners of approximately 10 percent of the Internet Protocol addresses that are
potentially compromised due to an APT.

EPA leadership must meet this challenge head-on by sufficiently funding the development of a
real capability to identify and investigate attacks against EPA’s computer and network systems.
Moreover, Congress should fully consider EPA’s new budget proposals to ensure that the
Agency has the fiscal capacity to tackle this challenge. EPA management cannot continue to rely
on a “pay as you go” mentality; rather, EPA needs an established budget for managing
information technology infrastructure and security. Key leaders must understand the threats that
exist to EPA’s confidential business information and the importance of minimizing those risks.
Furthermore, the Chief Information Officer and Office of Technology Operations and Planning
leadership should carefully study and trust the classified intelligence materials provided to them
regarding threats against government domains. The Agency should also develop a method to


2
  As of September 15, 2010, the number of servers and user workstations that may have been compromised had
increased to over 7,800.


11-P-0277                                                                                                    14
disseminate sensitive information, including classified data, to senior leadership and technical
staff, especially when the network is reportedly (5,000 plus systems) compromised.

 Self-Reported Data Unreliable for Assessing EPA’s Computer Security Program
 (10-P-0058, February 2, 2010)


The oversight and monitoring procedures for ASSERT provide limited assurance the data are
reliable for assessing EPA’s computer security program. As a result:

      Unsubstantiated responses for self-reported information contribute to data quality
       problems.
      Limited independent reviews and lack of followup inhibit EPA’s ability to identify and
       correct data inaccuracies.
      Independent reviews lack coordination with certification and accreditation activities.
      Information security personnel believe they need more training on how to assess security
       controls and feel pressure to answer system security questions in a positive manner.
      Limited internal reporting on required security controls and missing information in
       security plans inhibit external reporting.

Further, incomplete security documentation raises concerns as to whether the ASSERT 

application contractor is meeting federal requirements. 


 Improved Security Planning Needed for the Customer Technology Solutions Project (10-P-0028,
 November 16, 2009)


EPA lacks a process to routinely test Customer Technology Solutions (CTS) equipment for
known vulnerabilities and to correct identified threats. Further, EPA placed CTS equipment into
production without fully assessing the risk the equipment poses to the Agency’s network and
authorizing the equipment for operations. The Office of Management and Budget requires
federal agencies to create a security plan for each general support system and ensure the plan
complies with guidance issued by NIST. Both vulnerability management and the preparation of
critical security documents such as the Security Plan and the Authorization to Operate are
paramount to fulfilling this requirement. These weaknesses exist because EPA undertook an
aggressive schedule to install over 11,500 computers at 18 locations across the United States. As
problems occurred during installation, management focused its attention on addressing these
issues in order to meet the deployment schedule milestone.

Given the widespread use of CTS equipment, thousands of information resources provide a
path for potential unauthorized access to EPA’s network. EPA lacks processes to identify
these threats or the capability to lessen their impact.

On November 9, 2009, management signed an authorization to operate for the CTS equipment
and outlined key actions that needed to be completed.

We Recommend


11-P-0277                                                                                          15
 Project Delays Prevent EPA from Implementing an Agency-wide Information Security
 Vulnerability Management Program (09-P-0240, September 21, 2009)


EPA implemented 56 percent (15 of 27) of the information security audit recommendations we
reviewed. EPA’s lack of progress on four key audit recommendations we made in 2004 and
2005 inhibits EPA from providing an Agency-wide process for security monitoring of its
computer network. EPA has not established an Agency-wide network security monitoring
program because EPA did not take alternative action when this project ran into significant
delays. By not performing this critical function, EPA management lacked information necessary
to respond to known threats against EPA’s network and to mitigate vulnerabilities before they
can be exploited.

EPA offices do not regularly evaluate the effectiveness of actions taken to correct identified
deficiencies, as required by Office of Management and Budget Circular A-123. EPA is updating
its audit management and oversight policies; we provided suggestions for strengthening them.




11-P-0277                                                                                   16
                                                                                                 Appendix C

                                Open Recommendations

Below is a list of open audit recommendations, the implementation of which by the Office of
Environmental Information would improve information security controls in Agency systems,
programs, processes, or procedures. These recommendations, when implemented, could help the
Agency strengthen cyber security areas and respond to APTs. Moreover, it appears the Agency
should evaluate implementing these recommendations across the Agency (not just in locations
listed below).

OIG open audit recommendations as of May 24, 2011
Security Configuration and Monitoring of EPA’s Remote Access Methods Need Improvement,
Report No. 2005-P-00011

                                                                                     Planned      Revised
                                                                                    completion   completion
Open recommendation                                                                    date         date
Develop and implement a security-monitoring program that includes testing all       9/30/2005    6/30/2011
servers, and require all system administrators to register their servers with the
National Technology Services Division and participate in the security-monitoring
program.
Expand the Agency's security-monitoring program to include using a variety of       9/30/2005    6/30/2011
network vulnerability scanning tools to monitor registered servers.
Establish and implement a process to ensure program and regional offices            9/30/2005    6/30/2011
conduct regular security monitoring that includes vulnerability scanning.

EPA Could Improve Processes for Managing Contracting Systems and Reporting Incidents,
Report No. 2007-P-00007

                                                                                     Planned      Revised
                                                                                    completion   completion
Open recommendation                                                                    date         date
Develop and implement guidance that EPA offices can use to identify                 9/18/2008    9/15/2011
appropriate contractor systems that contain EPA data.

EPA Could Improve Controls Over Mainframe System Software, Report No. 2007-P-00008

                                                                                     Planned      Revised
                                                                                    completion   completion
Open recommendation                                                                    date         date
Complete efforts to update the Office of Environmental Information (OEI)            9/18/2008    3/30/2013
Information Security Manual and the EPA Information Security Manual.
Subsequent to finalizing the changes, ensure the manuals are (1) reviewed
timely by EPA management for adequacy, accuracy, and completeness; and
(2) approved by EPA management in a timely manner.




11-P-0277                                                                                                     17
Results of Technical Network Vulnerability Assessment: EPA Headquarters, Report No. 09-P-0097

                                                                                      Planned      Revised
                                                                                     completion   completion
Open recommendation                                                                     date         date
Develop and implement procedures to periodically review the data within IP           12/31/2010   4/30/2011
Registry for accuracy and completeness. These procedures should include, but
not be limited to, documenting any findings, issuing correspondences to the
responsible Program Offices to resolve the findings and maintaining documents
of all resolutions.

Project Delays Prevent EPA from Implementing an Agency-wide Information Security Vulnerability
Management Program, Report No. 09-P-0240

                                                                                      Planned      Revised
                                                                                     completion   completion
Open recommendation                                                                     date         date
Issue an updated memorandum that: (a) reflects the current version of NIST           4/01/2011    8/30/2011
Special Publication 800-53; (b) requires continuous scanning/remediation on at
least a monthly basis; (c) requires continuous scanning/remediation be
performed using two tools concurrently; and (d) specifies what tools and
resources OEI can actually provide to help the applicable personnel fulfill these
responsibilities and what the applicable organization will have to obtain on their
own to perform these responsibilities.
Source: EPA OIG.




11-P-0277                                                                                                      18
                                                                                Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Followup Official (the CFO)
Agency Followup Coordinator
Director, Office of Technology Operations and Planning, Office of Environmental
       Information
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Environmental Information




11-P-0277                                                                               19
